RECORD:

Doc.

201

GARY DUBIN AND HIS TEAM ARE MY HEROES

,,When I was diagnosed with advanced stage cancer, I wasn't able to work to pay my
just before closing, my big
mortgage. I tried to do ihe right thing and sell my house, but
mainiand mortgage company added on more than $140,000 in unfair fees and penalties,
making the house impossible to sell.
My buyers were angry, I was sick and almost out of money, and the mortgage
.o-purry was for*rlosing, which would mean losing the life savings I had invested in my
house. I honestly didn't know what to do.
Gary Oubin and his team took my case, fearlessly fought one of the largest mortgage
the
companies in the country, and won. This stopped the foreclosure proceedings and saved
incredible
beautiful old house I IovL so much and had spent years restoring. It was the most
thing I have ever seen. Gary Dubin and his team are my heroes."

-

t\'{. h'1..

Nuuatlu. Harvaii

THE BEST LAWYER SPECIALIST IN FORECLOSURE

.,Mr. Gary Dubin is the best lawyer specialist in foreclosure in the State of Hawaii.
is
Don,t lose your money and your precious time. The only lawyer who can save your house
Mr. Gary Dubin in Honolulu, Hawaii. He has the knowledge, experience,
2 4hour I 7 d.ays/week availability for his clients' "
- C. 8., Honolttlu, Harvaii

I HIGHLY RECOMMEND THE TEAM OF DUBTN LAW OFFICES

..The tenacity of Dubin Law Offices is second to none. I highly recommend the team
of Dubin Law Offices to represent your interests. They are highly professional and very

proficient'

R. 1., Nlrrkau'ao. Hau'*ii

FANTASTIC SETTLEMEI$T

..Mr. Dubin and staff took on my foreclosure case in Honolulu and handled it with
outstanding legal expertise and come through with a fantastic settlement in my favor'"

*

D.C., \4laikiki, Harvaii

I LISTEI{ TO YOUR SHOW. IT'S GREAT

,,I live in Washington State and listen to your show. It's great and has helped me to
understand what's really going on't'
* .\..,\., ser't:tle, \4rashi'gton

MAHALOFoRSoMUCHYOUANDYOURTEAMDo

o.Mahalo for so much you and your team does! I have forwarded your show and
website to other fraud-closure fighters especially in CA and in other States."
R.Y., BerkcleY, Cahfornia
1

POSITIVELY THE VERY BEST IN ALL OF HAWAII

..The corruption which our home lendi.ng institutions in this country have been able
to arm themselves with is criminal! The system has been manipulated over the years by the
lenders themselves and have in essence written their own laws for their own benefit and to
the demise on the American dream. I have myself lived through a long, drawn out
foreclosure process and have now a head ofgrey hair to prove I have "been there". This was
some of the most humiliating and stressful times of my iife where I lived in fear from day to
day, answering my doorbell to large, scary iooking rnen in black suites who would threaten
me as to the consequences of my not adhering to their eviction notices, which were places
publicity
in the front of my home, where I had been iiving for some 20 years'
?he primitive tactics which were used were tenifying to say the ieast, my wife would
break down into tears as she would over hear the men at the door as they addressed me
with the threats. The emotions carried down to my 6-year-old daughter. It was a horrible
experience and wish it upon nobody'
As the "Man of the House", I felt degraded and was made to feel undeserving to be
living in my own home! Never a rnillion years would I have ever dreamed of such a
nightmare. t fr"a no clue as to how this system worked when it worked when it worked

against me.
I had always paid my bills on time and had a perfect credit score for my entire career.
I have a college education, 46 years old at the time, self-employed for 20 plus years and
consider myself to be above average in many ways. The home lending institutions we are
d.eaiing wiih in our country are cut throat and relentless. Before I knew it, the banks had
processed. a non-judicial foreclosure on my home and I was told to get out of my home
immediately or even more severe conseguences would occul.
Documents were then sent to my home by way of special delivery stating that I was
no longer on title to my home. It showed that my lender had sold my home to another bank
at a private auction, which later we found out was the same bank under a different name.
The feeiing reminded me of the humility and the pain I went through as a young boy
in high school. I was robbed of my lunch money at recess, had my pants torn down to my
knees and was severely beaten by three boys, ali twice my size, then left on the ground
which a broken nose and two broken ribs, unconscious and in a puddle of blood and too
scared to name the assailants. It was because I had hit this bottom that I called upon my
business lawyer and friend, Sid.
Sid recommended that I contact Lawyer Gary Victor Dubin. Ever since that day,
things slowly turned around f<rr me. I consider myself to be one of the lucky ones and Gary
*r. ubl. to find many discrepancies in the way my loan was originally presented to me.
Breaches in commis*io1 puy-ents to various brokers during my refinancing processes and
"Truth in Lendjng" issues were also named in my suit against Country$d* Home Loans'
Only because of ily Lawyer and a fair Judge and due process as it should be am I still living
in my home today with a new 30-year loan modified through our battled in court with a
workable outcome and an interest tate of 3%o.
My advice to anybody in a situation would be to not waste any time as I had done but
hire yourself a good lawyerimmediately. I am in no way advertising for Gary Dubin but
woulh have to say that he is positively the very best in all of Hawaii. If not for Gary, I do
not know where i would be today. Alt I do know is that myself and my two girls are very
thankful. We thank Gary for saving our home and my dignity'"
-A.M., Honoiulu, Hawaii
2

A GREAT ATTORNEY
,.Mr. Dubin is a wonderful caring attorney that was able to make the mortgage
company ad.mit they did wrongful acts during my lawsuit against them'
use
Mr. Dubin is always been agreeable to answering ali of my questions and I would
case."
him in the future. He has kept melnformed in new laws and events that affect my

L. ll., Hiio Han'aii

THE ONLY CHOICE FOR SOMEOI'{E WHO NEEDS LEGAL HELP

,.Gary Dubin helped us with an action against Bank of America when everyone said
it was either too late or impossible to win this case against the bank. For Gary, it was
only
neither too late or impossiblu u. he won in our favor and helped us keep our home. Our
and
bury Dubin from the beginning, without a doubt, he is britliant
regret was not
"ri"g
thi only choice for someone who needs legal help!" *
M. & I'I. A.. Iiula, Haq'aii

OUTSTANDING ATTORNEY

,,Mr. Dubin has protected my family's $20,000,000 in real estate assets in Honolulu
in real estate
since the mid-lgg0s. He is an outstanding attorney and leading specialist
job no
outstanding
an
firm
do
iitigation nationally. I recommend him highly. He and his law
*utt", how large or how small the amount at issue''o

- NL B., La Jolla, (-'alifornirl

THAI.IKGoD,THATYoUENTEREDoURLIVES!

,.you have been a godsend game changer for us. We were in deep dark black hole, which you have *u.ruguito pull us out off. I don't know if any other attorney could have
*r"o*ilirhed. for us what you have. As I have mentioned to you many times, our case was
the first lawsuit that I have been involved with personally (I hope it is the last). Knowing
got
what I know now - I wish that I had known about you from the start - when we first
involved with the lawsuit, we would not have had this legal mess'
job for us, but you have
The prior attorneys that we hired d.id not do a very good
turned things about for us, when no one else gave us a change'
you are like the quarterback that enters the game in the fourth quarter with our
behind 21to 14
team behind 21 to nothing. It is now close to the 2-minute warning. We are
Thank God, that
and on the opponents 10-!ard iine and driving for the tying touchdown.
you entered our lives!"
- A.y.. Hrnolulu. Harvaii

LOVE YOUR RADIO SHOW

,.I am almost every day, iisten to your wonderful radio. Love the program' the work of
leading, music, interesting guest. All for class!'o
- A.l\{.. SPirovo, Rus-"ia

3

WE WOULD HAVE LOST OUR HOUSE

,,Dubin Law Offices has been there for us during a very difficult time and has been
helping us negotiate multiple loan modifications. Without their support and guidance' we
have had
would. have lost our house years ago. They have always been supportive of us and
and his
people
f)ubin
like
Gary
are
our best interest in mind. \fue're very grateful that there

associates'n'

*

N{.P., Princesvilll:,

Hat'aii

THE DEFEAT OF BANK OF AMERICA

,.you can imagine my horror and disbelief bank in 2000 when I contacted my primary
just reduced
lender, Bank of America in an attempt to re-finance my property after having
my debt ratio by b0% with a $444,000loan re-payment from the sale of my Los Angeles, CA
pioperty, only to find that its subsidiary. BAC Home Loans had DOUBLED the mortgage
pu'*"rtt on my Hawaiian home without even informing me and based its ciaims on a
n*mber of fraudulent points of business including: 1. A factious Escrow Account deficit; 2.
via a B
Forced placed Hurricane Insurance (on a property that aiready had Hurricane Ins')
as
harassment
telephone
of A - owned insurance provided; and 3. Constant and relentless
many as 3-times a day, and as early as 4:00 A.M. regarding this account. Attorney Gary
Victor Dubin and his .tuff at Dubin Law Offices, took up the gauntlet and championed my
et al' in
cause with the encl result being the defeat of Bank of America, BAC Home Loans,
tlre Hilo Courts December 12rr',2O15."
* R. h'IeC., Hilo. Harvaii

ANOTHER TERRIFIC LAWYER

,,you are a magician. How many times, just with me, have you pulled a rabbit out of
the hat? Granted ro*. of your other clients may not feel as gratefui as I do, but they
haven,t given you as many and as challenging a cascade of opportunities for you to show
your
- ledge domains as I have! me of why I didn't remain a lawyer. Watching you, as I did
$much of this reminds
another terrific lawyer in my late 20's, I felt I needed to find a career that I could excel at as
much and love mor" than just a career, just as he did and as )'ou do now. I succeeded, but
just not for as long a run as you've had'
When I see ihe one dimensionality of the NY lawyers I've used and their fear and
and
timid.ness, besides frightening me, it makes me d.oubly grateful for your relentlessness
kinds
out of the box thinkin-g, u" *"ll as the decades of experience you've had waging these
am
of wars. I also love, that you love the little guy against the usually corrupt system. I
field
hoping that I help you haoe ,re* and just law in Hawaii, in the dreaded foreclosure
and that you get the deserved credit.
I know there's no guarantees in litigation, but I would have been hung and quartered
by now with any other lawyer'o'

-

N{.F., New

york, New

THANK YOU FOR ALL YOU'RE DOING

y'rk

..Thank you for all you're doing toblaze a new trail of evolution and resolution!"

4

F.N{.. Chicago, Illinois

THANK YOU TREMENDOUSLY FOR EVERYTHING

.,Again, I thank you tremendously for everything you and your offices provided us in
trying to save our home over the last ? years. It is an absolute blessing where we are going
on our nevt' adventure'"
* L. R-s.. Ervir Bcacir. Ifau,aii

YOU'VE GIVEN US THE HOPE
are go grateful to you and your frrm fov ali the help you've given us the HOPE
and safety that you have bestowed to us in a very very trying difficult time, it's
unmeasurable.
We think of the hundreds of people you've saved from a life of ruin and we smile. You
must know you are loved and your brain "admired"'
But most of ail, we are grateful for your protection and humor during this long
period. Thanks again for all you've done and for all you continue to do for our family."
n,We

* D.B. & J.8., Lahaina. Hzrrvaii

NE\rER SAY DIE ATTITUDE

,.I have watched you perform on both sides of litigation, you are a special litigator
with a "never say die attitude". Sometimes, I wonder if our judicial system is not tilted
towards the politically connected., big money and large law firms. You help to level the
playing field'"
- \'LlJ., l{o'oltiir,r. lla*,aii

THANK YOU FOR WORKING MTRACLES

,.Gary was personable, patient, knowledgeable, and helpful to me as his client. My
foreclosure was a complete mess, the mortgage was 8 years delinquent and the
commissioner (unbeknownst to me) had accepted. an offer that the court confirmed, when I
found Gary. So, I brought him a mess. I didn't know what to do. I didn't think it could be
saved, buithrough Gary's creativeness and strategy (That I still don't fully understand) I
was able to resolve my ioreclosure status and maintain control of the property' Thank you
for working miracles for me and my family! I felt as though my case was especially
chalienging but Gary saved it.
I searched long and hard for the right attorney to help me, without success. I was
embarrassed about my situation, but am grateful that I asked around and found some
friend.s that recommended Gary to me. I heartily recommend him to any homeowner'
wishing to exercise their rights and pursue ali legal remedies to keep their homes' Gary is
the best! He's a Warrior with a soft spot for homeowners'"

*

D.G., North Shore, Harvaii

I REALLY APPRECIATE YOUR RADIO

SHOW

.,I have been following your show for about the last six months. I really appreciate
the information you are discussion in regards to foreclosure."

5

J.O., OlvmPia. Waslringtorr

SHOW
THANK YOU FOR YOUR GREAT WORK ON YOUR RADIO
your show to

,,Thanks for your greatwork on your radio show! It's great listening to
judicial system."
see how walt st. u"a wu*rtington have corrupted our

*

14i.NI.,

Honolultt, Haq'air

GARY DUBIN _ THE PATRON SAINT OF DEBTORS IN POSSESSION
since

in Hawaii
have been in the Real Estate Development & Brokerage business
that was
LgTl.Approximately 20 years ago, I had a client of mine in trouble with a bank
Gary Dubin
not living up to the agreements in made with my clients. I had heard the name
my
attorney
so I asked
around 6. d"fending"people like mine in disputes with their banks
Dubin, you mean the patron Saint of Debtors in
about this and t *
""piiul"Gary
Possession".
clients, friends and
Since that time, I have used Gary and referred him to countless
Dubin always comes through
colleagues who have need.ed help from iime to time and Mr.
and meets his objectives.
I have oniy the highest regards for Gary and highly recommend him both as an
attorney and a friend'"
o,I

w.8., Ka'ua, Ifau,aii

CONGRATULATIONS ON YOUR EXCELLENT RADIO PROGRAM
way you

,,I am writing to congratulate you on your excellent radio program and the
insight,
presented. the facts and insights. I am amazed at the ievel of your foreclosure
those dealing
professionalism and the way you tackle the diverse array of issues, especially
iitt tt theft of homes by the frnancial mafia - "Too Big To Prosecute."

"

- il.A..

Kissimmere, ll'lorida

MR. DUBIN HAS A GREAT PASSION TO SAVE PEOPLE FROM FRAUD
spend

,,I am a client of the Dubin Law Offices, which I value considerably. Mr- Dubin
I could
quality time with me in identifying the problems I faced and the solutions to which
was imposed on me through a
choose in which tostrategically frst tfre abuse and foaud that
severe
wall street mortgagu of *-lrich i nua no agreement or knowledge of its working and people
a great passion to save
had
Dubin
Mr.
now.
untif
past
even
years,
the
in
shortcoming
the courts
from this kind of fraud and he got my confidence. He studies the problem, knows
and all the trappings of the Mortgage Industry'
his firm. And feel safe in choosing them. Don't do this on your
I highly
"".oir-*rd
own. You need a qualified firm to represent you'"
_ D.h{., Ho'ol'l*, Hawaii

I LO\IE YOUR RADIO SHOW

.,I live in South Kona, Hawaii and absolutely LOVE your show and applaud what you
behavior!!!! It's about
are doing on the air to educate the world about the banks' criminal

time!"

* K.A.,
6

Naalehu, Hawaii

GARY IS A TRUE PROFESSIONAL

.oln Janua ry Z0IO, my wife and I met with Gary Dubin to discuss our case. My wife
The first one did not even
and l had. already contacted t*o other attorneys to help us.
his
u"tt to get back to us and the second. took our money and disappeared later to haveagain'
"" to practice suspended. We heard about Gary from a friend and decided to try
license
professionai
Gary Dubin met with us and. right away put our minds at rest. Gary is a true
years while
with a heart for his clients. Gu.v has helped to keep us in our home now for 7
out case. Thank you, Gary, and all of your staff and associates'"

still fighting

R. & M. L., Erva lleach, Hawaii

THEY NEVER GIVE UP ON YOUR CASE

,,My first appearance in Civil Court Foreclosure was of my Condo. The dreadful
five divorce lawyers to defend me from wife who left for Japan
divorce preceded,lnvolving"years
to Hawaii. There were only credit card bills to pay. Ex-wife
for 1T
and never
property' I went to
"*trrrrrrd
tried to liquidate the business I had and any hope of saving my husiness
judgment on the Foreclosure case that
Foreclosure court Pro-se, the judge passed final
morning.
me, his
I sought legal defense and retained Dubin Law offrces. Gary Dubin consulted
I have' Given time
legal team represented me at another hearing in court for the business
loan' Without Dubin
to present a case uguirr*t the loan from an illegal trust who made the
iaw Offrces, I hadiess that a 17% chance to keep my business property. My case is now
appeal. I highiy recommend
before the appeal court and have a good chance to win the
Dubin Law Offrces for foreclosure defense. They never give up on your case''o
A.1..

Ilottolttltt, []awaii

I'M SO GRATEFUL FOR YOUR REPRESENTATION

,.THANK YOUII Hardly seems powerful enough to express my IMMENSE
your representation which
GRADITUDE for ALL you have accomplished. r'm so grateful for
and
una mo*tedgeable in ttte law. It takes brilliance to wade through
is so
"*pe"ienced
argue for the rule of the law'"
correctly
8.S.. I{rhei. Harvaii

THANK YOU O}'{ BEHALF OF IMIPONO FOUI'{DATION

.oGary, I just wanted to thank )rou on behalf of the ImiPono Foundation and all of the
teahze how many people you
men and women that you've helped representing uS, you don't
to expand our operations
have helped.. I hope *u ."r, continue to tretp further. we are trying
to help more homeless't

J. s., Kane.he Hawaii

YOU HAVE OUR ETERNAL GRATITUDE

our hearts. I am so very
can,t thank you enough for the burden you have taken from all
grateful that you calledle. Forgive me for equating lawyers with great white sharks'
Eottom line! You have our eternal gratitude'"
- Ci. \\/., Hilo. Hawarr

,oI

nI

THANK YOU FOR WHAT YOU DO

you for what you do."
',Love your efforts and info. Thank

* G. 8., Seattlo, \\ashington
PURSUIT OF
MR. DUBIN STANDS FOR TRUTH, LIBERTY, AND THE
HAPPINESS FOR HOMEOWNERS

.oMr. Dubin and his staff at Dubin Law Office are true American Patriots. Far too
institutions' Unsuspecting
many homeowners have been laid to waste by unscrupulous
and finely tuned attacks
homeowners find themselves unwitting victims of weli-oiled
Law can make sense of your
leaving them frnuncially and emotion"tiy exhausted. Dubin
situation and put it into a format the court will understand.
the homeowner
There are so many abuses, each more heinous than the last, that
a
tangent' The
going
on
off
inevitably wastes their precious two minutes of court time
like English, but in fact it is a
homeowner thinks the court speaks English, and it sound's
and to justice means nothing' The
language all to itself. Ernotional "pp*u:l, to fairness
of court. Further,
well-funded institutions, literally stealing homes, know the language
representatives to further fine tune their
these institution, orgur.ir" and educate tiieir legal
is you, and your home is
to crush their"opponents. Unfortunately, their opponent

ability
their prize.
Mr.Dubingoesbeyondsimplyrepresentingasinglehomeownerincourt.Hereaches
are making it through to
out to educate horir"o*rr"rs and tlieir atiorneys. Legal concepts
the ForeclosureHour broadcasts. Mr' Dubi'n
some of the jud.ges too. Listen to his efforts on
for homeowners. The legal system is
stands for truth, Iiberty, and the pursuit of happiness
have been using our court systems to
a tool. Banks, to"r, *"tti.arr, urrd. debt collectors
you too can be a true American
fraudulently steal homes for too long. Join the fight and
patriot''o
-- s'\\I" Iilril.a-Iiotlil' Ha*'.ii

YOU ARE AN AMAZING ADVOCATE FOR HOMEOWNERS
judicial system' Thank
,.you
an amazing advocate for homeowners and bucking a

are
you f"om the depths of my"soul for what you are doing'"

-

8.11 ,

Kihei, Hau'ait

THAI',{K YOU

..I just want to make sure you understand how your work on our behalf has made a
p"oi,fSl fit". tttu"t for gbing this distance, for thinking hard
profound difference
;rki"g tg-Yt preciouslime to present a worthv case' for
about ir,
aiialinds, dealing with fiizarre verdicts - such a
*orking on
flying to the
"o.rri,
stressful
- L.c., Karrai, H.waii

;;;;t
applyin;;r;;;;;,
.t"r'
life'"

KEEP UP THE FIGHT!

..Congratulations! You're awesome! Keep llp t-lre f-rqht! This does help. Listening to
tt e mainland on iHeart Radio' Mahalo!"
your show
"Tght

""* ""

E.L,i., Litchfielcl Pzrrk, Ars,zctna
8

THANK YOU FOR YOUR GREAT SERVICE

o,Never before have I witnessed an attorney with so much heart and feeling f9r- a
solid
client trying to sarre ttt.ir tto-e. In a seemingly hopeless situation, yougive hope with
homeowner
the
iu* una tfre-determination to frght a corrupt antiquated system that offersguy. The w.or.ld
or justfi.-vo.t m* rJlentiess iryour pursuit to help the littleiittr"
best
""li"r
would be a be[te" pt"." with more attorneyi like you looking out-for the homeowner's
rtehti"g Lie [u"k* rhat perpeiually perpetrate fraud on the courts and fraud on
";J
your great seriice. You are worth more than you charge'"

i;;;;;;
;t;;;il.

ih;"til;fir

- Il.T., N4aui. Has'air
THANK YOU

,rThank you for giving others and me hope_to keep our homes!! My next vun will be
for Conjress. Foreclos.i"es *ltt U" a major issue I take on."

- 8.L., Irvittg, Texas
REAL MODERI{ DAY HERO

,,All my pro se attempts to get the Courts to follow the law have been ignored!
n"uo. been doing...you are an honest attorney and a real
Thanks agui' fo, gjiv"" a"
""a
modern day hero in my opinion!"
* s.A., Lea*,'cicr, I(a'sas

FOREVER GRATEFUL FOR DUBII'{ LAW OFFICES

and through Gary Dubin and his
is
worth evgry penny spwrt! My.
law firm, *" .u*ri"l of tnut dark holeli His-eipertise
^
time! Our
Dubin at the
I
found
family home *u* ui.ti* oifrundulent foreclosirre and
"igb!
" U"t p"ti"rr." is a virtue and we won!! I love Mr. Dubin and his staff'
case took some ti*",
MV famit' will be forever-grateful for Dubin Law Offices."

,,I cannot

u*pt"r. the hole that my family was in

D.tT, Lerie. Hau'aii

WE THANK GOD FOR GARY AND HIS TEAM

,,Dubin Law firm has been a God send to me and my wife. We had been scamrned by
who
two other Attorneys in a battie to try to save our home from our corrupt mortgage co'
in
Attorney-s
wrote us an illegai ho*" loan. Gary and his team not only restored our faith
they gave .r, p"... oi *l"a in this iong fight and are stifstanding strong by our sides. We
tilaif'God for Gary and his team. They are truly professionals'"
R.L.. Ew:r Beiiclt, Iiau'aii

STATE OF THE ART

,,Mahalo to you and John for another great show today! I have learned so much from
t},e art"
yoo,^ pru."ntationJ;;G;""s -and remain v6ry grateful for your continued "state of
"representation. Thanks lgain for all the great work!"

- C.1,., Kapolei,
THANK YOU

Haq'aii

,,Thank you for your help and hard work, God Bless your team. With much Aloha!
- A.'['., Para, Harvaii

I

WE WOULD LIKE TO EXPRESS OUR GRATITUDE

.,On behalf of Imi Pono Foundation and its Founder, Mr. Jody A. Solbach, we would
like to express our gratitude for your unwavering assistance in helping us in retaining
;5"*; p;;;"rii"r. Y6,rr assistance has led to altering the lives of several hundred men and
*o*"r on th"i" road. to recovery; many of those would be homeless without our facilities.
if."d you and much appreciation from Imi Pono Foundation and its members."

- J.S., Iiatteohe, IIaq'aii
CARING ATTORNEYS LIKE YOU EXIST FOR PEOPLE LIKE US
y-ou
,lfou

and your staff have worked hard ovev time and we appreciate everything
have d.one and sfiil continue to push for a positive ending. We have read all of the similar
.u*u. that you have provided and now have a clearer understanding ofwhat other
ho-eowners like .rs Lau" felt hopeless and worried. about losing their homes. It goes to
like you exist foy rggnle ljke us. We thank you for the bottom of
.fto* that caring
"tto"nrys
;;; h;;;fo" uit your efforh and hard work. We look forward for the results of the coming
court hearing later this month."

- J.B. &.1.8., Hilo, Has'aii
I'M LEARNIT',IG SO MUCH

..I'm learning so much from your radio show. Once again, I can't thank you enough
for aII your work and educating the public."
- X{. C,, Kailr'ra-Kotta' I{au':iii

YOU ARE AMAZING

..I really appreciate your time AND the education, you're absolutely amazing. Your
team is lucky to have a vested mentor in you."
* A.R.. \4iaialua. Harvaii

I WON

,,I fought my own appeal at the Intermediate Court, I did my own litigali^o1 S0-0+-.
pages later, ii*ti"g up everything I could. find including pCC restrictions on US Bank. The
conclusion and I am
;;;;it;i" cou*t rul6d in *y favor,-just so you \now that this is the
you
are the supporter of that
rJfieued to know that therl is stiil'justice out there and I know
you
are taking the time.to
so I just want you to know that your initiat meeting with me and
actuatly pointing out the few key information about note assignment triggered my curiosity
about those legal aspects, so I did win.o'
- I_T.S., Waiair.ra, Harvlii

OUR DEEPEST APPRECIATION

.,It is with deepest appreciation that we acknowledge hgw..v_g1y_thankful we are for
you! your brain, yorri. mtt, your life experience (street smarts!)!!! Without you, Fred, your
"fi"-, o,r" lives would be an entirely different story. We have one fight life, but at last, there
wi11 fe others on t]ti* wheel cailed-lifel We pray for you and your happiness and continued
you are
success. This Christmas, we always think of those who have touched our lives and
you
Gary."
you,
thank
you,
thank
people!
Thank
one of those special
-- Il"B.. h{aru, Hau'aii

10

THANK YOU

"Thank you for sharing your time every week to educate your audience. Your legal
analysis is inspirational'"
- D.G., chesterra'rl, orrio

YOU ARE A BLESSING!
"You are a blessing! I was at a point of desperation and severe depression due to the
absence of hope! I believe God answered my prayers in getting in me in touch with you!"
J.C., Kauai, Harvaii

THANK YOU FOR YOUR CONSTANT SUPPORT

"Thanks for your constant support. You and your firm are doing miracles for our
homeless community dealing with drug and alcohol problems. God bless.

-

J.S., I{aneohe, Han'air

HELPING HOMEOWI'{ERS

"I

love you Gary. You deserve a special place in heaven for helping homeowners."

- 8.T.. X,Iar.ri. Harvaii

"Just";l#*mff H'T'?,****ff

your team are just outstanding, and we
would meet with us even if its last minute. You and 'Y1"T**P#3*#,,n.timesvou
are grateful for everything you have done for us. Mahalo for your patience, understanding,
and especially for giving us the opportunity to own our home again'"
-, E.O. & H.O.. [,Iililani, Hawaii

YOU ARE A GODSEND
"You are a godsend Gary. Bless you. We sleep well knowing you are at the helm.'o

-

A.M. Kapaau, Hawair

HOMEOWNERS NEED A CHAMPION LIKE YOU

"I am glad I have you in my corner. Homeowners need a champion like you to frght
for them, against this corrupt system. Great Job Gary!"

-

A.I4. Honolulu, I{au'aii

THANK YOU
"Thank you, attorney. God is so good to us. God bless you more and more Godly
wisdom in our favor; glory to God. I thank God also for the Judge; he is a wonderful judge. I
am in tears with joy, attorney. I love you in the love for the Lord God bless you."

* A.h,f . Honolulu,

11

Harn'aii

VICTORY

,,Unbelievable appellate resume, you've prevailed using such a variet;' 6f a{gYg_glts,
brilliant. I love what you mentioned today on youl radio show, FOLLOW THE MONEY."

- R^L. Honolulu. Hau'trit
CONGRATULATIONS TO THE FORECLOSURE HOUR

,.Info To Fight Foreclosure congratulates and commends Gary Dubin for his diligent,
and. mostly successful, defense of homeowners and the American Justice System. We post
this review of his SIXTH anniversary and highly recommend you spend a few hours
listening to one of the most successful foreclosure defense attorneys in the nation!"

-

"Ihave-,"*:"?T*-ff'f

infotofightforeclosurc. conr

s#iJ3til-*#*ff Y##f ;.',"."".statusaslt

relates to this show the foreclosure hour. I am an avid iistener to your show the foreclosure
hour. I do rny best to listen attentively and also to study any avenue to benefit the favor of
my mother and our house as we dcfend against what we believe to be a fraudulent
foreclosure. Recently we've received record from the court, granting an order (in our favor)
for rcconsideration. We were in summary jud.gment, summary judgement was granted (in
opposition to us) and all seemed lost. Through extensive work and study, we filed many
clifferent documents addressing various discrepancies that the court was willing to hear.
Most all of these things were either diorectly or indirectly attained by rneans of your show
the foreclosure hour. I'ii be filing an order denying summary judgment next with great
confidence that it wiil be d.ecreed. I do not consider this case to be over, but I do feel that the
tables have been turned. There has been a lot of prayer through this time of distress, but I
don't know if we could havc done any of this without the support of your show! I am beyond

grateful' Mahalo

Nui'"

- $.H..Honorulu,

Flawaii

BRAVO!

,,I would just like to commend you Mr. Gary Dubin and Mr, John Waihee for such a
great show. While I plan on never having to contest foreclosure, .[ love the content of this
rho* ancl find it all so fascinating. As 41 year old, Generation X'er, som"eone who grew up in
the late eighties ancl nineties, I appreciate the topics of discussion but what makes this
show great is getting a glimpse of the wealth of knowledge you both have and hearing about
your past exper,iences. I love that you are in tune with what goes on nationally and locally
and include topics that effect this industry. I have often stayed in my car aftcr arriving at
my destination on to just listen to your awesome show, I also iove that I can listen to past
sh6ws on your website. I clo wish the show were longer or even televised but I understand
the content may not be popular enough with the general public. I just wanted to thank you
for such a great show that for me is such a breath of fresh air."

* C.I{.

12

Honolu}u. Hawaii

YoUwoNTHEAPPEALTODAYASPROMISED

.,What a wonclerful Thanksgiving gift all beca-use of you. You are truly a ray of light
can implement the
from God for saving;;h;;' Th6re is"a'real stor5r here and now we
I hope you have
upon-us'
fraud
this
perpetraling
lawsuit, against P;;tM;; utra Cnute for
for your
people
thankful
scl
many
by
loved
wonderful Thu,'k*gi"i"g u"a know that;'ou are
presence on earth'"
* B. & Fl' T' N{a'i' Ha\a'aii

a

I APPRECIATE ALL YOU ARE DOII{G

o,Thank you Sir......I appreciate all you are doing on this case as so many others that
place with practicing Law
you represent d.o as well. Our State Judiciary is a much better
,'Big Boy's" accountable. You are hereby forbidden to ever retire GVD'"
and holding the

- J.lt. Honolulu, Hawaii
BEST ATTORNEY

.oJust to let you know that

I consider you the best attorney I have ever had,"

- J.\i.C i\'Iarii. Flarvaii

ENLIGHTBNING AI.{D REFRE SHING

..For ten years, Gary Dubin in Hawaii has been practicing law defending homeowners
foreclosure fraud' And
from fbreclosure. H" ira* preached his own version of how to combat
and' refreshing'
he has practiced what he preached. I find his work enlightening
stated, reasonable
objectively
well'written,
His article and prc,posals are extremely
by homeowners and nonand necessary. In *y opirrion Dubin's quest should be supported
system' our economic
homeowners alike as ilproposes to correct a deficit in our legal
by what amounts to
system and our society. The inequality of wealth that was exacerbated
system cau be
outright theft by . t arrdf.* of banks can be corrected and our ecouomic
stabiiized if we return to the rule of law'"
* Neil Gariield, Florida

STILL STUNNED

,,Todd & i think of you so often and rve constantly ponder on how in the world we can
be grateful'
ever thank you enoughl You changed our lives and we will forever
original beauty' All
its
to
home
We are on tour, *or:i.irrg our buns off.... to restore our
paths cross on the
thanks to you! I hope we can entertain you if you come to Kauai or oul
mainland. Sending much much love and respect'"

-

1.3

T. & N{. Rundgren, Kilauea, Hawair

